No. 20-896
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

TERESA M. GRAHAM,
Petitioner,
v.
SERGEANT SHANNON L. BARNETTE,
OFFICER AMANDA SANCHEZ, OFFICER MOHAMED NOOR,
AND CITY OF MINNEAPOLIS,
Respondents.

REPLY IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI

JORDAN S. KUSHNER
Counsel of Record
Attorney for Petitioner
431 South 7th Street
Suite 2446
Minneapolis, MN 55415
(612) 288-0545

FACTUAL CORRECTIONS
As Respondents point out, the disputed facts are not likely germane determination
of whether to grant certiorari, but Respondents nevertheless proceed to misstate numerous
facts warranting corrections. The person who anonymously called 911 claiming to be
Petitioner Teresa Graham’s cousin claimed that Ms. Graham had threatened him and his
family but did not provide any specifics as to the substantive content or nature of the
alleged threats. After police officers came to Ms. Graham’s home for the first time and
then left, she did make phone calls to the police to complain about the visit and also to
address concerns about her brother who was a disabled and vulnerable adult. There is no
evidence to support Respondents’ assertion that Ms. Graham asserted “convoluted
conspiracy theories.”
Respondent Sgt. Shannon Barnett who made the decision to seize Ms. Graham on
a mental health hold did not have any specific knowledge of mental health issues beyond
a possible lay person conclusion. Barnette testified that she had no specific knowledge of
any alleged harassment and restraining orders. The order state court order cited by
Respondents from 1998 (19 years before the incident in question) was not within
Barnette’s knowledge. It would also not be within Barnette’s knowledge that the order
was subsequently vacated.
The record establishes based on computer printouts of communications and
testimony of other officers that Barnette made the decision to seize Ms. Graham for a

2

mental health hold before receiving a phone call from another coausing that Ms. Graham
may fight with police or going to Ms. Graham’s house.
It is undisputed based on Respondent’s own recitations of facts that Ms. Graham
demanded that police leave her property and refused to open the door for them. It is also
undisputed that police officer forced their way into Ms. Graham’s home without her
permission and then detained her against her will, and that there was no evidence of any
immediate emergency.
REASONS FOR ALLOWANCE OF THE WRIT
I.

THE DECISION IN CANIGLIA V. STROM NECESSITATES REVIEW.
The Court’s recent decision in Caniglia v. Strom, 141 S.Ct. 1596 (2021) makes

clear that Respondent police officers violated Ms. Graham’s Fourth Amendment rights by
forcibly entering her home under the guise of the “community caretaking exception.”
Caniglia held that “‘caretaking’ duties” did not create “a standalone doctrine that justifies
warrantless searches and seizures in the home.” 141 S. Ct. 1596 at 1598. Respondents’
justification for its entry into Ms. Graham’s home was based entirely on the community
caretaking exception and it is now clear that justification was constitutionally invalid.
Respondents argued prior to the Caniglia decision that even if it were to rule that
the community caretaking exception did not permit warrantless home entries, the police
officers in the instant case would still be protected by qualified immunity because the law
was not clearly established in the 8th Circuit at the time of the incident. The language that

3

the Court chose in Caniglia indicates that the belief that the community caretaking
exception extended to a private home was not objectively reasonable.
Caniglia states, “The First Circuit's “community caretaking” rule, however, goes
beyond anything this Court has recognized. The decision below assumed that respondents
lacked a warrant or consent, and it expressly disclaimed the possibility that they were
reacting to a crime.” 141 S. Ct. at 1599. The decision further explained that Cady v.
Dombrowski, 413 U.S. 433, 93 S. Ct. 2523 (1973), the Supreme Court case which
recognized the community caretaking exception, made an “unmistakable distinction
between vehicles and homes also places into proper context its reference to ‘community
caretaking.’” Id. Cady had recognized a warrant exception specifically for motor vehicles
while also stating that the permission to perform certain tasks in that context that these
was “not an open-ended license to perform them anywhere.” Id.
The Eighth circuit’s conclusion that the community caretaking exception to the
warrant requirement applied to private homes where there was no issue of the police
responding to any crime was an unreasonable application of the law. The police officers
likewise were not objectively reasonable if they made an assumption that their conduct
was constitutional.
Respondents’ may also argue that even if the interpretation of the law was
unreasonable, prior case law in the Eighth Circuit has extended the applied the
community care taking exception to the home and therefore created some basis for

4

believing the actions in question were lawful. The prior case law in the Eighth Circuit
which was cited in the underlying decision in this case permitted a warrantless entry into
the home where an “officer has a reasonable belief that an emergency exists requiring his
or her attention.” Graham v. Barnette, 970 F.3d 1075, 1085 (8th Cir. 2020), App. 7A
(quoting United States v. Quezada, 448 F.3d 1005, 1007 (8th Cir. 2006). There would
not be any basis in this case to conclude there was an “emergency.” At worst, Ms.
Graham was hostile and perhaps not completely rational, but there was no basis to
conclude there was any danger she was about to harm herself or anyone else. It was only
the 8th Circuit’s mistaken conclusion that Cady created an exception to the warrant
requirement that extended to the home which enabled its validation of police actions in
the instant case. See Id.
The Court’s holding in Caniglia which clearly invalidates the 8th Circuit’s decision
in the instant case necessitates further review of the decision. If the Court does not
directly accept review, it should at least remand the case for further consideration in light
of Caniglia.
II.

THE DOCTRINE OF QUALIFIED IMMUNITY SHOULD BE
ELIMINATED OR MODIFIED.
The instant case presents a useful vehicle for the Court to revisit the controversial

doctrine of qualified immunity. Respondents’ actions clearly violated Ms Graham’s
Fourth Amendment rights. The Caniglia decision, as explained above, made it clear that
the conclusion that Supreme Court case law authorized the police actions was erroneous
5

and unreasonable. A citizen whose constitutional rights were clearly violated should not
be denied a legal remedy. Police officers should not be immune from liability for a clear
constitutional violations, even if there were some legal authority suggesting validity of
their actions that was plainly erroneous. The legislative intent of 42 U.S.C. § 1983 is to
provide adequate remedies including monetary damages to citizens whose federal rights
are violated. The effective operation of this important law requires a change in qualified
immunity jurisprudence. The wrongs committed against Ms. Graham provide an
opportunity for the Court to modify its case law to be consistent with the purposes of §
1983.
CONCLUSION
Petitioner Teresa M. Graham respectfully prays that a writ of certiorari issue. In

Respectfully submitted,
Dated: May 26, 2021

s/Jordan S. Kushner
Jordan S. Kushner
Counsel of Record
Attorney for Petitioner
431 South 7th Street
Suite 2446
Minneapolis, MN 55415
(612) 288-0545

6

